                                                                  Issue Date
                                                                           March 13, 2012
                                                                  Audit Report Number
                                                                               2012-LA-1005




TO:         William Vasquez, Director, Los Angeles Office of Community Planning and
            Development, 9DD



FROM:       Tanya E. Schulze, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The City of Los Angeles, CA, Did Not Expend Brownfields Economic
         Development Initiative and Section 108 Funds for the Goodyear Industrial Tract
         Project in Accordance With HUD Requirements

                                  HIGHLIGHTS

 What We Audited and Why

             We audited the City of Los Angeles’ Community Development Department as
             a result of a complaint, which alleged that U.S. Department of Housing and
             Urban Development (HUD) funds were misused for the development of the
             Goodyear Industrial Tract project. The City was awarded Brownfields
             Economic Development Initiative grant funds and Section 108 loan guarantee
             funds for the development of this project. Our audit objective was to
             determine whether the City expended Brownfields and Section 108 funds for
             the development of the project on eligible activities and within required
             deadlines in accordance with HUD requirements.

 What We Found


             The City did not expend Brownfields and Section 108 funds awarded for the
             development of the project in accordance with HUD requirements.
             Specifically, the City used loan and grant funds for an ineligible project and
           expended grant funds after the grant deadline. As a result, it expended (1) $3.8
           million in loan funds on an ineligible project, (2) $625,000 in grant funds on an
           ineligible project after the grant expenditure deadline, and (3) an additional
           $897,821 in grant funds after the grant expenditure deadline. As a result, the
           City did not ensure that HUD funds were disbursed in accordance with HUD
           rules and regulations and used on approved projects intended to meet the
           programs’ national objectives.

What We Recommend


           We recommend that the Director of the Los Angeles Office of Community
           Planning and Development require the City to (1) repay $3.8 million from non-
           Federal funds for the use of Section 108 loan funds for an ineligible project,
           plus any interest due, to HUD’s Section 108 loan account; (2) reimburse
           $625,000 from non-Federal funds for the use of Brownfields funds for an
           ineligible project after the grant agreement deadline, plus any interest due, to
           HUD’s Brownfields account; (3) reimburse $897,821 from non-Federal funds
           for use of the funds after the grant agreement deadline, plus any interest due, to
           HUD’s Brownfields account; and (4) establish and implement policies,
           procedures, and controls to ensure that grant and Section 108 loan funds are
           used for eligible project activities and expended within applicable deadlines in
           accordance with HUD rules and regulations.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided the City a discussion draft report on February 7, 2012, and held
           an exit conference with City officials on February 15, 2012. The City provided
           written comments on February 22, 2012. It generally disagreed with our
           findings. The complete text of the auditee’s response, along with our
           evaluation of that response, can be found in appendix B of this report.
           Attachments to the auditee’s response will be made available upon request.




                                           2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
Finding: The City Did Not Expend Section 108 Loan and Brownfields Grant Funds in   5
         Accordance With HUD Requirements

Scope and Methodology
                                                                                   9
Internal Controls
                                                                                   10
Appendixes

   A. Schedule of Questioned Costs                                                 11
   B. Auditee Comments and OIG’s Evaluation                                        12
   C. Criteria                                                                     24




                                           3
                     BACKGROUND AND OBJECTIVE

The Brownfields Economic Development Initiative grant is designed to stimulate and promote
economic and community development. It is intended to assist cities with the redevelopment
of abandoned, idled, and underused industrial and commercial facilities, the expansion and
redevelopment of which is burdened by real or perceived environmental contamination
(brownfield sites). The Brownfields grant funds are primarily targeted for use with particular
emphasis upon the redevelopment of brownfield sites in economic development projects and
the increase of economic opportunities for low- and moderate-income persons as part of the
creation or retention of businesses, jobs, and increases in the local tax base. All grants must
be used in conjunction with a new Section 108 loan guarantee commitment.

The Section 108 loan guarantee program is a provision of the Community Development Block
Grant (CDBG) program. Section 108 loans provide grantees with a source for economic
development, housing rehabilitation, public facilities, and large-scale physical development
projects. For purposes of determining eligibility, the CDBG rules and requirements apply.
All projects and activities must meet one of the following three U.S. Department of Housing
and Urban Development (HUD) national objectives: (1) benefit low- to moderate-income
persons, (2) prevent or eliminate slums or blight, or (3) meet other community development
needs having a particular urgency because existing conditions pose a serious and immediate
threat to the health and welfare of the community.

HUD emphasizes the use of Brownfields and Section 108 loan guarantee funds to finance
projects and activities that will provide near-term results and demonstrable economic benefits.
HUD does not encourage site acquisition or remediation (land banking) when there is no
immediately planned redevelopment. Brownfields funds are used to enhance the security or
to improve the viability of a project financed with a new Section 108 loan.

The City of Los Angeles’ Community Development Department was awarded $1.7 million in
Brownfields grant funds and $10.4 million in Section 108 loan guarantee funds for the
development of the Goodyear Industrial Tract project. Specifically, the funds would be used
for the remediation of three locations within the project: (1) Slauson Central Retail Plaza
(Slauson and Central Avenues), (2) Apex Patterns (McKinley Street), and (3) United L.A.
Alloys (Slauson Avenue). The Brownfields grant agreement was effective on December 21,
1998; however, it was signed on July 14, 2004. The grant stipulated that funds must be
expended and withdrawn by August 31, 2005. There were two contracts for the Section 108
loan funds—the first, dated July 14, 2004, for more than $6.5 million, and the second, dated
September 27, 2004, for more than $3.8 million—totaling $10.4 million. The Section 108
loan agreement stipulated that funds must be expended and withdrawn by September 30,
2004.

The objective of the audit was to determine whether the City expended Brownfields and
Section 108 funds for the development of the Goodyear Industrial Tract project on eligible
activities and within required deadlines in accordance with HUD requirements.


                                               4
                               RESULTS OF AUDIT

Finding: The City Did Not Expend Section 108 Loan and
         Brownfields Grant Funds in Accordance With HUD
         Requirements
The City did not expend Section 108 loan and Brownfields grant funds in accordance with
HUD requirements. Specifically, it used loan and grant funds for an ineligible project and
expended grant funds after the grant deadline. This condition occurred because the City did
not have sufficient policies and procedures for monitoring its HUD loans and grants. It
expended (1) $3.8 million in loan funds on an ineligible project, (2) $625,000 in grant funds
on an ineligible project after the grant expenditure deadline, and (3) an additional $897,821 in
grant funds after the grant expenditure deadline. As a result, funds were not available for the
City to use on approved projects intended to meet the programs’ national objectives.


 The City Used Section 108 Loan
 Guarantee and Brownfields
 Grant Funds for an Ineligible
 Project

               The City used $3.8 million in Section 108 loan guarantee funds and $625,000
               in Brownfields grant funds for an ineligible project. It used the funds for the
               interest repayment, acquisition, loan fees, and interest reserves for the Avalon
               Park Plaza project.

               Section 2 of the grant agreement requires grant funds to be used in connection
               with the development of the Goodyear Industrial Tract project to specifically
               develop or expand the following businesses: (1) Slauson Central Retail Plaza,
               (2) Apex Patterns Company, and (3) United L.A. Alloys Company. Section 8
               of the grant agreement states the agreement may only be amended with prior
               written approval from HUD. Further, section 15(i) of the Section 108 loan
               guarantee contract requires that a lien be placed on the real property that will
               be funded with the loan funds. The legal descriptions detailed in attachment 3
               of the Section 108 loan guarantee contract do not include the Avalon Park
               Plaza project. Section 15(j) of the Section 108 loan guarantee contract
               incorporates the entire grant agreement into the Section 108 loan guarantee
               contract. In addition, 24 CFR (Code of Federal Regulations) 570.704(a)(i)(B)
               states that activities that will be funded with HUD funds must be described in
               the application for loan guarantee assistance in detail. The City provided HUD
               with a status report on the progress of the grant and loan funds and its related
               projects. However, it did not request approval for the use of grant and loan
               funds for the Avalon Park Plaza project. The City stated that since it did not
               receive a response from HUD regarding the status report, it

                                               5
                    believed that it was able to use the funds on the Avalon Park Plaza project.
                    Section 11 of the grant agreement specifically states that all amendments must
                    be in writing and executed by both HUD and the recipient.

                    Since the project was not part of the Section 108 loan or Brownfields grant
                    agreements, the City used $4.4 million in loan and grant funds for ineligible
                    purposes. We attribute this deficiency to the City’s lack of policies and
                    procedures to ensure that Section 108 and Brownfields funds were monitored
                    and expended on approved projects and activities in accordance with HUD
                    rules and regulations. Since the City used the funds for an unapproved project,
                    funds were not available for eligible projects to meet the national objectives of
                    the loan and grant programs.

    The City Used Brownfields
    Funds After the Grant
    Expenditure Deadline

                    The City withdrew more than $1.5 million in Brownfields funds after the
                    deadline set forth in its contract with HUD. Section 6(c) of the grant contract
                    entered into with HUD states that funds must be entirely withdrawn and
                    expended for approved uses for the applicable approved project(s) on or before
                    August 31, 2005. As documented in the table below, the City requested only
                    three withdrawals from HUD before the deadline for a total of $177,179. The
                    balance of the $1.7 million grant was requested after HUD’s deadline.

                                    Drawdowns of the City’s Brownfields grant
           Date                        Project                                         Amount
           requested
           01/08/05              Slauson Central                                       26,782
           05/09/05              Slauson Central                                       17,816
           07/29/05              Slauson Central                                       132,581
           Subtotal amount drawn before contract expenditure deadline                  177,179
           10/31/05              Slauson Central                                       68,563
           02/14/07              Slauson Central                                       654,554
           12/06/07              Slauson Central                                       174,704
           10/29/08              Avalon Park Plaza                                     625,000
           Subtotal amount drawn after contract expenditure                            $1,522,821
           deadline
           Total amount drawn from HUD for Brownfields grant                           $1,700,000

                    Of the $1.5 million, the City withdrew $897,821 in grant funds after the
                    deadline and $625,0001 for an ineligible project after the expenditure deadline.
                    The City confirmed that it did not have specific policies and procedures for its

1
    Ineligible use of $625,000 is described in previous section.

                                                           6
             Brownfields funds. Additionally, the City did not properly monitor these
             funds. Consequently, it did not ensure that HUD funds were disbursed within
             the applicable deadlines in accordance with HUD rules and regulations to
             ensure that it met the national objectives of the grant program.

Conclusion

             The City withdrew more than $5.3 million in Brownfields and Section 108
             funds in violation of its agreements with HUD and HUD rules and regulations.
             We attribute this deficiency to the City’s lack of policies and procedures for the
             use of Brownfields and Section 108 funds. As a result, funds were not
             available for eligible projects and activities. These funds could have been
             made available to other eligible grantees and helped maximize the
             effectiveness of the programs by helping to ensure that the programs’ national
             objectives were met.


Recommendations


             We recommend that the Director of the HUD Los Angeles Office of
             Community Planning and Development require the City to

             1A.    Repay $3,817,000 from non-Federal funds for the use of Section 108
                    loan funds for an ineligible project, plus any interest due, to HUD’s
                    Section 108 loan account.

             1B.    Establish and implement policies, procedures, and controls to ensure
                    that Section 108 funds are used only for eligible projects and activities
                    in accordance with its Section 108 loan guarantee agreement and HUD
                    rules and regulations.

             1C.    Reimburse $625,000 from non-Federal funds for using Brownfields
                    grant funds for an ineligible project after the grant agreement deadline,
                    plus any interest due, to HUD’s Brownfields account.

             1D.    Establish and implement policies, procedures, and controls to ensure
                    that Brownfields grant funds are only used for eligible projects and
                    activities in accordance with its grant agreement and HUD rules and
                    regulations.

             1E.    Reimburse $897,821 from non-Federal funds for using Brownfields
                    grant funds after the grant agreement expenditure deadline, plus any
                    interest due, to HUD’s Brownfields account.



                                             7
1F.   Establish and implement policies, procedures, and controls to ensure
      that Brownfields grant funds are expended within the applicable
      deadlines in accordance with its grant agreement and HUD rules and
      regulations.




                             8
                       SCOPE AND METHODOLOGY

We performed our onsite audit work at the City’s offices, located in Los Angeles, CA,
between August and October 2011. Our audit scope covered the period December 1998
through September 2011.

To accomplish our audit objective, we

          Reviewed applicable HUD regulations, the Code of Federal Regulations, and other
          requirements and directives that govern the Brownfields and Section 108 loan
          guarantee programs.

          Reviewed the City’s grant agreements.

          Reviewed HUD files and correspondence for the City’s Brownfields and Section
          108 loan programs.

          Reviewed the City’s applicable policies and procedures used to administer its
          Brownfields and Section 108 loan activities.

          Interviewed City personnel responsible for administering the City’s Brownfields
          and Section 108 loan programs.

          Reviewed all HUD disbursements for the Brownfields and Section 108 loan
          programs for the Goodyear Industrial Tract project.

          Reviewed all expenditures for the Brownfields and Section 108 loan programs,
          along with supporting documentation for the Goodyear Industrial Tract project.

We conducted the review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusion based on our audit objective.




                                              9
                             INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s
mission, goals, and objectives with regard to

            Effectiveness and efficiency of operations,
            Reliability of financial reporting, and
            Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as
the systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                  Policies and procedures to ensure that HUD funds are withdrawn and
                  expended in accordance with HUD requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing
               their assigned functions, the reasonable opportunity to prevent, detect, or
               correct (1) impairments to effectiveness or efficiency of operations, (2)
               misstatements in financial or performance information, or (3) violations of
               laws and regulations on a timely basis.

 Significant Deficiency


               Based on our review, we believe that the following item is a significant
               deficiency:

                  The City did not have adequate policies and procedures in place to ensure
                  compliance with Brownfields and Section 108 loan program requirements
                  (see finding 1).


                                              10
                                   APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS

                   Recommendation                           Ineligible 1/
                          number
                                  1A                         $3,817,000
                                  1C                           $625,000
                                  1E                           $897,821
                                Total                        $5,339,821


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
     activity that the auditor believes are not allowable by law; contract; or Federal, State,
     or local policies or regulations. These costs consist of Section 108 loan guarantee and
     Brownfields grant funds used for an ineligible project and grant funds expended after
     the grant deadline.




                                            11
Appendix B

       AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                        12
Comment 1-3


Comment 4-7



Comment 8-9



Comment 10



Comment 1-5




Comment 8–9




              13
14
Names have been redacted for privacy reasons




                      15
Comment 1




Comment 2




Comment 3




Comment 4




            16
Comment 4




Comment 5




Comment 6




Comment 7




Comment 8




            17
Comment 8




Comment 8




Comment 8




Comment 8




Comment 9




            18
Comment 10




Comment 11




             19
                       OIG Evaluation of Auditee Comments

Comment 1   We acknowledge that the City requested an extension of the BEDI expenditure
            deadline. However, HUD and the City did not execute an amendment to the
            grant agreement. Paragraph 11 of the BEDI grant agreement specifically states
            “this Agreement constitutes the entire Agreement between the Recipient and
            HUD, and it may not be amended except in writing and executed by authorized
            officials of both HUD and the Recipient.” Since an amendment was not
            executed, the deadline stated in the grant agreement is binding. Further, HUD
            complied with the agreement as there is no requirement that HUD must
            approve and incorporate all amendment requests by the City.

Comment 2   We acknowledge that HUD never formally responded to the City’s amendment
            request and never indicated to the City that its request was not in compliance
            with the grant agreement. However, HUD is not obligated to approve all
            amendment requests and evaluates several factors when considering proposed
            amendments. Paragraph 8(a) of the BEDI grant agreement states that in
            considering proposed amendments to the grant agreement or the approved
            application HUD “shall review, among other things, whether the amendment
            would have affected the ranking of the application in the year it was approved
            sufficiently to have resulted in the application not ranking high enough for
            funding, and whether the amendment is otherwise consistent with the Act, the
            Regulations, and the NOFA.” As a result, HUD is not required to approve all
            amendment requests.

Comment 3   Since HUD and the City did not execute an amendment to the agreement, the
            City was required to follow the BEDI grant agreement deadline. We
            acknowledge that if HUD and the City had agreed to extend the expenditure
            deadline, three of the four drawdowns in question would have been within the
            new deadline. However, an extension was never approved and incorporated
            into the BEDI grant agreement.

Comment 4   The OIG acknowledges that the City did not receive a response of its request to
            extend its BEDI grant funds expenditure deadline from HUD. The OIG also
            acknowledges that the City received an email from a HUD employee in May
            2005 that stated there was no deadline for the expenditure of BEDI funds. We
            disagree with the City that it was reasonable to rely on the HUD e-mail
            because paragraph 6(c) of the grant agreement specifies an expenditure
            deadline of August 31, 2005. In addition, it is not reasonable to believe that
            there is no expenditure deadline and that the agreement can continue
            indefinitely.

Comment 5   We also disagree with the City that formal amendments to the agreement are
            only required for “new grant obligations” and that the email constituted an
            amendment to the agreement. Paragraph 11 of the BEDI grant agreement



                                          20
            clearly states that amendments must be in writing and executed by authorized
            officials of both HUD and the Recipient. Further, Paragraph 8(a) of the grant
            agreement states “to request approval of an amendment, the recipient shall
            attach the proposed revisions to the applicable pages of this agreement…to a
            cover letter addressed as required below (see paragraph 11)…signed by the
            recipient’s official representative for this grant.” Paragraph 11 of the agreement
            also requires that all notifications to HUD (which would include proposed
            amendments) be addressed to the Director of HUD’s Financial Management
            Division in Washington, DC. The May 31, 2005 email provided does not meet
            the requirements for an amendment to the agreement. As a result, an
            amendment was never executed to extend the expenditure deadline.

Comment 6   The OIG agrees that Paragraph 6 (a) of the grant agreement states that the City
            must obtain HUD’s approval for the release of the grant funds. However,
            Paragraph 6 (a) is in reference to environmental review procedures only.
            Paragraph 6 (c) of the grant agreement states that the funds “must be entirely
            withdrawn and expended for Approved Uses for the applicable Approved
            Project on or before August 31, 2005.” The City submitted seven drawdown
            requests to HUD that only stated the grant number. The requests were signed
            by an official from the City that certified all information provided on the
            request was true and accurate. HUD approved and processed the
            disbursements for the intended purposes of the grant, as stated in the BEDI
            grant agreement, with the assurance that the City certified that it was in
            compliance with its BEDI grant agreement.

            The OIG recognizes that HUD never informed the City that the four
            drawdowns after August 31, 2005 were not in compliance with the
            requirements of the grant agreement. However, HUD processed the
            disbursements for the intended purposes of the grant, as stated in the BEDI
            grant agreement and certified by the City to be true and accurate. HUD
            approved the drawdown requests made by the City with the assurance that the
            City certified it was in compliance of its BEDI grant agreement.

Comment 7   The fact that HUD did not take action at the time of the drawdowns does not
            permit the City to violate its BEDI grant agreement with HUD. The City is
            required to comply with its BEDI grant agreement. The default provision
            (Paragraph 9) of the agreement specifies that HUD can take remedial or
            corrective action for violation of the agreement. The agreement further states
            “No delay or omission by HUD in exercising any right or remedy under this
            Agreement shall impair HUD’s ability to exercise such right or remedy or
            constitute a waiver of, or acquiescence in, any Recipient default”. This permits
            HUD to enforce the default provision (Paragraph 9) and take corrective action
            at any time.

Comment 8   We acknowledge that the City identified three specific eligible projects within
            the Goodyear Industrial Tract: (1) Slauson Central Retail Plaza, (2) Apex

                                            21
            Patterns Company/General Electric Site, and (3) United L.A. Alloys Company
            in its BEDI grant and Section 108 loan applications. Further, 24 CFR Section
            570.704 (a)(i)(B) requires that each activity proposed to carry out with the
            Section 108 loan funds “must be described in sufficient detail, including
            provision of Section 570.703 under which it is eligible and the national
            objective to be met, amount of guaranteed loan funds expected to be used, and
            location, to allow citizens to determine the degree to which they will be
            affected.” HUD approves BEDI grant and Section 108 loan funds based on the
            information provided on the applications submitted and certified to be true and
            correct by the applicant. Approval for funding is based on the specific projects
            identified in the applications. Additionally, the BEDI grant agreement and
            Section 108 loan contract require that all BEDI grant and Section 108 loan
            funds be used for approved projects only. Therefore, the use of these funds for
            other projects located within the Goodyear Industrial Tract not identified in the
            applications, BEDI grant agreement, and Section 108 loan contract are not
            eligible for funding with these funds.

            The City informed HUD in a letter dated June 4, 2003, that two of the three
            projects approved for funding were not ready for funding at that time. One
            year later, July 14, 2004, the City executed a Section 108 loan contract with
            HUD for the Slauson Central project. Two months later, September 27, 2004,
            the City and HUD executed a contract for the remaining Section 108 loan
            funds. Both contracts (paragraph 15(c)(i)) stated that the loan funds must be
            used to acquire specific eligible projects within the Goodyear Industrial Tract.
            The July 14, 2004 contract required use of funds for property described as the
            Kramer Parcels. The September 27, 2004 contract required use of funds to
            acquire four parcels for the Slauson Central Retail Center, one parcel for
            United Alloys, and one parcel for the General Electric Site. Paragraph 7 of
            both contracts also states that the City may not use Section 108 funds for other
            purposes without prior written approval from the Secretary. Avalon Park Plaza
            is not included in either of the contracts and the contracts do not contain any
            provisions that would permit the City to substitute projects or parcels without
            an amendment to the contract.

            The City submitted a letter, dated September 30, 2008, informing HUD that
            $6.6 million in Section 108 funds had been used on the Slauson Central
            project. The remaining $3.8 million in Section 108 loan funds would “likely
            be allocated” to the Avalon Park Plaza project and did not state the funds
            would be used on the project. The letter was not a request for an amendment to
            the current Section 108 contract and it only provided HUD with an update of
            the project progression. In addition, all contracts with HUD are binding and
            any departure requires a formal amendment to the contract.

Comment 9   We agree that all amendments to the Section 108 loan contract must be
            approved by HUD. 24 CFR Section 570.704(c)(5) refers to the amendment
            requirements of Section 108 loan funds. It does not specify the terms of

                                           22
              Section 108 loan contracts. Nonetheless, all amendments must be approved by
              HUD and follow the citizen participation requirements for amendments in 24
              CFR 570.704(a)(2). The City did not provide sufficient support that HUD
              approved any amendments to the Section 108 loan application or contract.
              Further, the BEDI grant agreement and Section 108 loan contracts were
              approved for the specific projects described within them. The OIG
              acknowledges that HUD did not provide a response to the City’s letter dated
              September 30, 2008; however, an amendment was not approved by HUD with
              its nonresponse. Discussions and letters to HUD do not equate to HUD
              approval. In addition, paragraph 15(j) of the contracts incorporated the entire
              BEDI grant agreement into the Section 108 loan contracts. Therefore, the
              amendment requirements in paragraphs 8 and 11 of the grant agreement
              identified previously in comment 2 and comment 4 apply. The documentation
              provided by the City did not meet these requirements.

Comment 10 The City submitted applications for both BEDI and Section 108 funding for
           three specific project activities. HUD approved funding for the three specific
           projects to help maximize the effectiveness of the program by helping to
           ensure that the programs’ national objectives were met. The City violated its
           grant agreement and loan contracts by changing projects without HUD
           approval.

Comment 11 We disagree with the City and are not removing the recommendations from the
           report. We also disagree that the City had sufficient policies and procedures in
           place to ensure BEDI and Section 108 loan funds are used for eligible
           activities. The City did not follow its BEDI agreement and Section 108 loan
           contracts with HUD. The City needs to establish sufficient policies and
           procedures to ensure that Section 108 loan and BEDI grant funds are only used
           for eligible projects. The City will provide these policies and procedures for
           HUD review during the audit resolution process.




                                             23
Appendix C

                                       CRITERIA

24 CFR 570.704, Application Requirements
(a) Presubmission and citizen participation requirements. (1) Before submission of an
application for loan guarantee assistance to HUD, the public entity must:
(i) Develop a proposed application that includes the following items:
(A) The community development objectives the public entity proposes to pursue with the
guaranteed loan funds.
(B) The activities the public entity proposes to carry out with the guaranteed loan funds. Each
activity must be described in sufficient detail, including provision of Section 570.703 under
which it is eligible and the national objective to be met, amount of guaranteed loan funds
expected to be used, and location, to allow citizens to determine the degree to which they will
be affected. The proposed application must indicate which activities are expected to generate
program income. The application must also describe where citizens may obtain additional
information about proposed activities.

24 CFR 570.705, Loan Requirements
(b) Security requirements. To assure the repayment of debt obligations and the charges
incurred under paragraph (g) of this section and as a condition for receiving loan guarantee
assistance, the public entity (and State and designated public agency, as applicable) shall:
(1) Enter into a contract for loan guarantee assistance with HUD, in a form acceptable to
HUD, including provisions for repayment of debt obligations guaranteed hereunder;

24 CFR 570.208, Criteria for National Objectives
The following criteria shall be used to determine whether a CDBG-assisted activity complies
with one or more of the national objectives as required under section 570.200 (a) (2):
   a) Activities benefiting low- and moderate-income persons. Activities meeting the
      criteria in paragraph (a)(1), (2), (3), or (4) of this section as applicable, will be
      considered to benefit low and moderate income persons unless there is substantial
      evidence to the contrary. In assessing any such evidence, the full range of direct
      effects of the assisted activity will be considered. (The recipient shall appropriately
      ensure that activities that meet these criteria do not benefit moderate income persons to
      the exclusion of low income persons).

Brownfields Economic Development Grant Agreement (B-98-BD-06-0034), Executed
July 14, 2004

2. Approved Grant Amount, Projects, and Uses of Funds
c. The grant funds shall be used in connection with the Approved Project for the following
specifically Approved Uses (“Approved Uses”):



                                              24
Environmental clean-up and site preparation of parcels in the area known as the “Goodyear
Industrial Park Tract” for an economic development purpose pursuant to 24 CFR
570.703(f)(2), specifically relating to the development and/or expansion of the following
businesses:
   1) Slauson Central Retail Plaza
   2) Apex Patterns Company – expansion
   3) United L.A. Alloys Company – expansion

6. Release, Deposit, and Timing of Expenditure of Grant Funds and Program Income
c. This BEDI [Brownfields] Grant must be entirely withdrawn and expended for Approved
Uses for the applicable Approved Project on or before August 31, 2005.

8. Amendment; Record-Keeping
a. This Agreement or the Approved Application may be amended only with the prior written
approval of HUD.

11. General
…This Agreement constitutes the entire Agreement between the Recipient and HUD, and it
may not be amended except in writing and executed by authorized officials of both HUD and
the Recipient.

Contract for Loan Guarantee Assistance Under Section 108 of the Housing and
Community Development Act of 1974, September 24, 2004 (B-99-MC-06-0523)

PART II
1. Receipt, Deposit and Use of Guaranteed Loan Funds·
…The Borrower shall make withdrawals from said account only for payment of the costs of
approved Section 108 activities.

7. Use of CDBG or EDI [Economic Development Initiative] Funds for Repayment
Any funds specifically available to the Borrower [City] for such payments or as a debt service
reserve under an EDI Grant Agreement pursuant to Section 108(q) of the Act which supports
the eligible project(s) and activities financed by the Note may also be used therefore; any
other use of Section 108(q) funds for such purposes shall require the prior written approval of
the Secretary.

15. Special Conditions and Modifications
(b) Guaranteed Loan Funds shall be used by the Borrower [City] to make a loans to one or
more developers, to assist in acquisition or real property, and the development of
commercial/industrial projects at the Goodyear Industrial Tract, pursuant to 24 CFR
570.703(i)(1).
(c) In order to secure the payment and performance of the secured obligations of the Obligors
to the Borrower, the Borrower shall obtain the following collateral (collectively, the
“Collateral”):
(i) A lien on the real property described in Attachment 3 hereof. Established through
appropriate and properly recorded mortgage.

                                              25
(j) The Grant Agreement, dated July 14, 2004 for the grant made to the Borrower pursuant to
Section 108(q), under grant number B-98-BD-06-0034, is hereby incorporated in this Contract
and made a part hereof.

Attachment 3

Legal Descriptions

Slauson Central Retail Center

PARCEL 1:
THAT PORTION OF SECTION 20, TOWNSHIP 2 SOUTH; RANGE 13 WEST, SAN
BERNARDINO MERIDIAN, IN THE CITY OF LOS ANGELES, COUNTY OF LOS
ANGELES, STATE OF CALIFORNIA, ACCORDING TO THE OFFICIAL PLAT OF
SAID LAND, DESCRIBED AS FOLLOWS:
BEGINNING AT THE INTERSECTION OF THE WEST LINE OF CENTRAL
AVENUE, (100 FEET WIDE), AS NOW.ESTABLISHED, WITH THE SOUTH LINE
OF SLAUSON AVENUE (40 FEET WIDE) AS NOW ESTABLISHED, WHICH
INTERSECTION IS SOUTH 0 DEGREES 05 MINUTES 20 FEET AND SOUTH 89
DEGREES 17 MINUTES 50 SECONDS WEST 50 FEET FROM THE NORTHEAST
CORNER OF SAID SECTION 20; THENCE ALONG THE SOUTH LINE OF
SLAUSON AVENUE, SOUTH 89 DEGREES 17 MINUTES 50 SECONDS WEST
344.75 FEET; THENCE SOUTHEASTERLY ON A CURVE CONCAVE TO THE
SOUTHWEST, HAVING A RADIUS OF 397.96 FEET AND WHOSE RADIAL LINE
BEARS SOUTH 31 DEGREES 18 MINUTES 10 SECONDS WEST A DISTANCE OF
408.27 FEET; THENCE TANGENT TO SAID CURVE SOUTH 0 DEGREES 05
MINUTES WEST 40539 FEET; THENCE SOUTH 89 DEGREES 25 EAST 153.05 TO
A POINT IN THE WEST LINE OF CENTRAL AVENUE; THENCE ALONG SAID
WEST LINE NORTH 0 DEGREES 05 MINUTES, 748.68 FEET TO THE POINT OF
BEGINNING.

PARCEL 2:
PARCEL “A”, IN THE CITY OF LOS ANGELES, COUNTY OF LOS ANGELES,
STATE OF CALIFORNIA, AS SHOWN UPON PARCEL MAP L.A. NO. 875, FILED
IN BOOK 8 PAGE 38 OF PARCEL MAPS, IN THE OFFICE OF THE COUNTY
RECORDER OF SAID COUNTY.

PARCEL 3:
PARCEL “B”, IN THE CITY OF LOS ANGELES, COUNTY OF LOS ANGELES,
STATE OF CALIFORNIA, AS SHOWN UPON PARCEL MAP L.A. NO. 875, FILED
IN BOOK 8 PAGE 38 OF PARCEL MAPS, IN THE OFFICE OF THE COUNTY
RECORDER OF SAID COUNTY

PARCEL 4

PARCEL “C” AS SHOWN ON PARCEL MAP LOS ANGELES NO. 875, IN THE
                                            26
CITY OF LOS ANGELES, COUNTY OF LOS ANGELES, STATE OF CALIFORNIA,
AS PER MAP FILED IN BOOK 8 PAGE 38 OF PARCEL MAPS, IN THE OFFICE OF
THE COUNTY RECORDER OF SAID COUNTY
EXCEPTING THEREFROM ALL RIGHTS, TITLE AND INTEREST IN AND TO
SUBSURFACE MINERAL RIGHTS, INCLUDING, BUT NOT LIMITED TO OIL,
MINERALS, GAS AND OTHER HYDROCARBON SUBSTANCES, WITHOUT THE
RIGHT OF SURFACE ENTRY, AS RESERVED BY GEORGE H. NIQUETTE AND
RUTH E. NIQUETTE, HUSBAND AND WIFE, IN DEED RECORDED OCTOBER 30,
1972 AS INSTRUMENT NO. 1495, OFFICIAL RECORDS.

United Alloys

LOT EX OF R/W COM S 8925' W 919.84 FT FROM NW COR OF 59 ST AND
CENTRAL AVE

General Electric Site

DE CANTILLON TRACT LOT EX OF R/W COM E 695 FT AND N 699.86 FT FROM
S 114 COR




                                   27
